No. 19-1269
IN THE

Suprant Gaud of tht IWO Mateo
TCL COMMUNICATION TECHNOLOGY HOLDINGS LIMITED; TCT MOBILE LIMITED;
TCT MOBILE (US) INC.,
Petitioners,
v.
ERICSSON, INC.; TELEFONAKTIEBOLAGET LM ERICSSON,
Respondents.
ON PETITION FOR A WRIT OF CERTIORARI TO THE
UNITED STATES COURT OF APPEALS
FOR THE FEDERAL CIRCUIT
AMENDED CERTIFICATE OF SERVICE

I, Seth P. Waxman, a member of the bar of this Court, hereby certify on this 15th
day of May, 2020, all parties required to be served have been served copies of the
Petition for a Writ of Certiorari in this matter on May 1, 2020 by email and overnight
courier to the addresses on the attached service list.

SETH P. WAXMAN
WILMER CUTLER PICKERING
HALE AND DORR LLP
1875 Pennsylvania Ave., NW
Washington, D.C. 20006
(202) 663-6000
seth. waximan@wilmerhale.com

RECEIVED
MAY 20 2020
I Eir,riiacect5RcrL5.111

AMENDED SERVICE LIST
JEFFREY A. LAMKEN
EMILY DAMRAU
RAYINER HASHEM
MICHAEL GREGORY PATTILLO, JR.
MOLOLAMKEN LLP
600 New Hampshire Avenue NW
Suite 500
Washington, D.C. 20037
jlamken@mololamken.com
edartirau@mololamken.com
rhashem@mololamken.com
mpattillo@mololamkeitcom
SARA MARGOLIS
MOLOLAMKEN LLP
430 Park Avenue
New York, NY 10022
sthargolis@mololamken.com
JOHN M. WHEALAN
4613 Merivale Road
Chevy Chase, MD 20815
JOHN S. GIBSON
AKHIL SHETH
DANIEL GLASSMAN
CROWELL & MORING LLP
3 Park Plaza, 20th Floor
Irvine, CA 92614
jgibson@crowell.com
asheth@crowell.com
dglassman@crowell.com
ROBERT B. MCNARY
515 S. Flower Street, 40th Floor
Los Angeles, CA 90071
rrncnary@crowell.com

MARK A. KLAPOW ,
CROWELL & MORING LLP
1001 Pennsylvania Avenue NW
Washington D.C. 20004
mklapow@crowell.com
DOUGLAS CAWLEY
THEODORE STEVENSON, III
NICHOLAS MATHEWS
ASHLEY MOORE
DAVID SOCHIA
McKo0L SMITH
300 Crescent Court, Suite 1500
Dallas, TX 75201
dcawley@mckoolsmith.com
tstevenson@mckoolsmith.com
nmathews@mckoolsmith.com
amoore@mckoolsmith.com
dsochia@mckoolsmith.com
CHRISTINE WOODIN
MCKOOL SMITH
One California Plaza
, 300 South Grand Ave, Suite 2900
Los Angeles, CA 90071
cwoodin@mckoolsmith.com
BLAKE H. BAILEY
MCKOOL SMITH
600 Travis Street, Suite 7000
Houston, TX 77002
bbailey@mckoolsmith.com

